December 2, 2020
Writer’s Direct Contact
(213) 683-9188
(213) 683-5188 FAX
Mark.Yohalem@mto.com

Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Lindsay R. Cooper, et al. v. Tokyo Electric Power Company Holdings, Inc., et al.
No. 20-730 (on Petition for a Writ of Certiorari)

Dear Mr. Harris:
I am a member of the Bar of this Court and one of the lawyers for Respondent Tokyo
Electric Power Company Holdings, Inc. (“TEPCO”) in the above-captioned matter, which was
docketed on November 25, 2020. Because this case clearly does not meet the high standards for
certiorari review set forth in this Court’s Rule 10, and because the Ninth Circuit’s decision below
plainly demonstrates that review is unwarranted, Respondent TEPCO does not intend to file a
response to the petition for a writ of certiorari unless one is requested by the Court. If the Court
requests a brief in opposition, TEPCO will, of course, promptly file one.
Very truly yours,
/s/ Mark R. Yohalem
Mark R. Yohalem

cc:

All Counsel

